No. _______
In The

Supreme Court of the United States
)))))Ë)))))
MAHMOUD THIAM,
v.

Petitioner,

UNITED STATES OF AMERICA,

Respondent.
)))))Ë)))))
On Petition for Writ of Certiorari
To The United States Court of Appeals
For the Second Circuit

)))))Ë)))))

PETITION FOR WRIT OF CERTIORARI
)))))Ë)))))
JONATHAN I. EDELSTEIN
EDELSTEIN & GROSSMAN

Counsel of Record

501 Fifth Avenue, Suite 514
New York, NY 10017
(212) 871-0571
jonathan.edelstein.2@gmail.com

QUESTIONS PRESENTED
1.
Where a foreign statute is used as a
predicate for prosecution in an American court, must
that statute be construed in accordance with
American constitutional limitations, including but
not limited to the vagueness doctrine?
2.
Where a defendant is charged with an
offense that requires, as a predicate, violation of a
foreign statute that requires a quid pro quo in
exchange for official action, must the jury be
instructed consistently with the definition of “official
act” set forth in McDonnell v. United States, 136 S.
Ct. 2355 (2016)?
3.
Did the petitioner’s conduct, as testfied
to at trial, amount to an official act pursuant to
McDonnell?

-i-

PARTIES TO THE PROCEEDING
The parties to the instant case are the United
States of America and petitioner Mahmoud Thiam.
There were no co-defendants in the courts below..

-ii-

LIST OF RELATED CASES
None known.

-iii-

TABLE OF CONTENTS
Statement of Questions Presented ............................ i
List of Parties to the Proceeding .............................. ii
Table of Contents ..................................................... iv
Table of Authorities ................................................. vi
List of Reported Opinions ......................................... 1
Jurisdictional Statement .......................................... 2
Constitutional Provisions and Statutes at Issue ..... 3
Statement of the Case ............................................. 10
A.

The Charges and Trial ....................... 10

B.

The Appeal ......................................... 36

Reasons for Granting the Writ ............................... 39
POINT I
WHERE A FOREIGN BRIBERY
STATUTE IS A PREDICATE TO
PROSECUTION IN A UNITED
STATES COURT, THE
LIMITATIONS OF McDONNELL
APPLY ........................................................... 39
-iv-

Conclusion ............................................................... 52
Appendix ........................................................... App. 1
Decision of the United States
Court of Appeals for the Second
Circuit dated August 5, 2019 ................ App. 1

-v-

TABLE OF AUTHORITIES
Cases:
Animal Science Prods., Inc. v.
Hebei Welcome Pharmaceutical Co., Ltd.,
138 S. Ct. 1865 (2018) ........................ 41,42,46
McDonnell v. United States,
136 S. Ct. 2355 (2016) ..................... i,36,37,43,
................................................................... 44,45,46,47,
......................................................................... 48,50,51
Skilling v. United States,
561 U.S. 358 (2010) ...................................... 50
United States v. Jefferson,
289 F. Supp. 3d 717 (E.D. Va. 2017) ........... 49
United States v. McClain,
593 F,2d 658 (5th Cir. 1979) ................ 40,41,43
United States v. Menendez,
291 F. Supp. 3d 606 (D.N.J. 2018) ............... 49
United States v. One Tyrannosaurus
Bataar Skeleton,
2012 WL 5834899 (S.D.N.Y. 2012) ............. 41
-vi-

United States v. Siegelman,
640 F.3d 1159 (11th Cir. 2011) ...................... 49
United States v.Thiam,
934 F.3d 89 (2d Cir. 2019) .............................. 1

Statutes and Rules:
U.S. Const. Amend. 5 ................................................ 3
15 U.S.C. § 78dd-1 ................................................... 39
18 U.S.C. § 201 ........................................ 38,40,44,47,
................................................................................... 48
18 U.S.C. § 1346 ...................................................... 40
18 U.S.C. § 1956 .......................................... 3,5,10,39,
.............................................................................. 40,47
18 U.S.C. § 1957 ................................................... 6,10
18 U.S.C. § 2314 ...................................................... 40
28 U.S.C. § 1254 ........................................................ 2
Guinea Penal Code § 192 .......................... 8,11,12,34,
-vii-

.............................................................................. 47,48
Guinea Penal Code § 194 .......................... 9,11,12,35,
................................................................................... 48

-viii-

REPORTED OPINIONS
United States v.Thiam, 934 F.3d 89 (2d Cir.
2019)

-1-

JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1) because this is a petition for
certiorari from a final judgment of the United States
Court of Appeals for the Second Circuit, in a criminal
case.
This petition is timely because the Second
Circuit’s decision affirming the petitioner’s conviction
was issued on August 5, 2019, and this petition is
filed within 90 days of that date.

-2-

CONSTITUTIONAL PROVISIONS
AND STATUTES AT ISSUE
U.S. Const. Amend. 5:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time of
War or public danger; nor shall any
person be subject for the same offence to
be twice put in jeopardy of life or limb;
nor shall be compelled in any criminal
case to be a witness against himself, nor
be deprived of life, liberty, or property,
without due process of law; nor shall
private property be taken for public use,
without just compensation.
18 U.S.C. § 1956(a)(1):
(a)(1) Whoever, knowing that the
property involved in a financial
transaction represents the proceeds of
some form of unlawful activity, conducts
or attempts to conduct such a
-3-

transaction which in fact involves the
proceeds of specified unlawful activity-(A)(i) with the intent to promote the
carrying on of specified unlawful
activity; or
(ii) with intent to engage in conduct
constituting a violation of section 7201
or 7206 of the Internal Revenue Code of
1986; or
(B) knowing that the transaction is
designed in whole or in part-(i) to conceal or disguise the nature, the
location, the source, the ownership, or
the control of the proceeds of specified
unlawful activity; or
(ii) to avoid a transaction reporting
requirement under State or Federal
law,
shall be sentenced to a fine of not more
than $500,000 or twice the value of the
property involved in the transaction,
whichever is greater, or imprisonment
-4-

for not more than twenty years, or both.
For purposes of this paragraph, a
financial transaction shall be considered
to be one involving the proceeds of
specified unlawful activity if it is part of
a set of parallel or dependent
transactions, any one of which involves
the proceeds of specified unlawful
activity, and all of which are part of a
single plan or arrangement.
18 U.S.C. § 1956(c)(7)(B)(iv):
(7) the term “specified unlawful
activity” means... (B) with respect to a
financial transaction occurring in whole
or in part in the United States, an
offense against a foreign nation
involving... (iv) bribery of a public
official, or the misappropriation, theft,
or embezzlement of public funds by or
for the benefit of a public official.
18 U.S.C. § 1956(f):
(f) There is extraterritorial jurisdiction
over the conduct prohibited by this
section if--5-

(1) the conduct is by a United States
citizen or, in the case of a non-United
States citizen, the conduct occurs in
part in the United States; and
(2) the transaction or series of related
transactions involves funds or monetary
instruments of a value exceeding
$10,000,
18 U.S.C. § 1957 (in pertinent part):
(a) Whoever, in any of the
circumstances set forth in subsection
(d), knowingly engages or attempts to
engage in a monetary transaction in
criminally derived property of a value
greater than $10,000 and is derived
from specified unlawful activity, shall
be punished as provided in subsection
(b)
[...]
(d) The circumstances referred to in
subsection (a) are--

-6-

(1) that the offense under this section
takes place in the United States or in
the special maritime and territorial
jurisdiction of the United States; or
(2) that the offense under this section
takes place outside the United States
and such special jurisdiction, but the
defendant is a United States person (as
defined in section 3077 of this title, but
excluding the class described in
paragraph (2)(D) of such section).
[...]
(f) As used in this section-(1) the term “monetary transaction”
means the deposit, withdrawal,
transfer, or exchange, in or affecting
interstate or foreign commerce, of funds
or a monetary instrument (as defined in
section 1956(c)(5) of this title) by,
through, or to a financial institution (as
defined in section 1956 of this title),
including any transaction that would be
a financial transaction under section
1956(c)(4)(B) of this title, but such term
-7-

does not include any transaction
necessary to preserve a person's right to
representation as guaranteed by the
sixth amendment to the Constitution;
(2) the term “criminally derived
property” means any property
constituting, or derived from, proceeds
obtained from a criminal offense; and
(3) the terms “specified unlawful
activity” and “proceeds” shall have the
meaning given those terms in section
1956 of this title.
Guinea Penal Code § 192 (in pertinent part):
Whoever has solicited or accepted offers
or promises, solicited or received
donations or gifts in order to: (1) being
an elected public official, a public
official of the administrative order,
agent or official of a public
administration or citizen in charge of a
public service ministry, to perform or
refrain from performing an act within
the scope of his/her functions or job, fair
or not, but not subject to salary, shall be
-8-

guilty of a crime.
Guinea Penal Code § 194 (in pertinent part):
Whoever, to obtain, either performance
of an act or the refraining from
performance of an act or one of the
favors or advantages set forth in Article
192, having employed assaults or
threats, promises, offers, donations or
gifts or given in to entreaties aimed at
bribery, even if he/she has not taken the
initiative, whether or not the force or
bribery has had an effect, shall be guilty
of a crime.

-9-

STATEMENT OF THE CASE
A.

The Charges and Trial.

On January 18, 2017, petitioner Mahmoud
Thiam was charged in a two-count indictment with
conducting transactions in criminally derived
property (18 U.S.C. § 1957) and money laundering
(18 U.S.C. § 1956(a)(1)(B)).
(A26-32).1
The
gravamen of the charges was that between 2009 and
2011, while Thiam was the Minister of Mines and
Geology of the Republic of Guinea, he (a) accepted
bribes totaling $8.5 million from a Chinese
consortium, the China International Fund ("CIF"),
that was bidding for mining concessions, and then (b)
transferred bribe money to American bank accounts
and spent some of the money in the United States for
his personal benefit. (A26-30).
Both the transaction count and the money
laundering count required proof that, when Thiam
accepted money from the Chinese investors, this
constituted an offense under Guinean law.
In
particular, the Government alleged that defendant

1

Citations to “A.” refer to the appendix
submitted to the Second Circuit, a copy of which will be
provided upon request.
-10-

violated Sections 192 and/or 194 of the Guinean
Penal Code.
The relevant part of Article 192,
entitled "Passive Corruption," provided as follows:
Whoever has solicited or accepted offers
or promises, solicited or received
donations or gifts in order to: (1) being
an elected public official, a public
official of the administrative order,
agent or official of a public
administration or citizen in charge of a
public service ministry, to perform or
refrain from performing an act within
the scope of his/her functions or job, fair
or not, but not subject to salary, shall be
guilty of a crime.
(A1308). The relevant part of Article 194, entitled
"Active Corruption," stated:
Whoever, to obtain, either performance
of an act or the refraining from
performance of an act or one of the
favors or advantages set forth in Article
192, having employed assaults or
threats, promises, offers, donations or
gifts or given in to entreaties aimed at
bribery, even if he/she has not taken the
-11-

initiative, whether or not the force or
bribery has had an effect, shall be guilty
of a crime.
(A1309-10).
It was undisputed that both Article 192 and
Article 194 require proof of a quid pro quo agreement
between the government official and the payor, and
that money that is not received pursuant to a quid
pro quo doesn't amount to an offense under either
section of the code. (A870-71). Additionally, the
affidavit of Professor Zogbelemou Togma, a former
Guinean Minister of Justice, attested that the
elements of the crime included agreeing, in exchange
for a quid pro quo, to engage or refrain from
engaging in "an act" (A82) and that the act must be
within the scope of the petitioner's function (A83).
The issues at trial were narrow. Petitioner did
not dispute that he received several million dollars
from persons associated with the CIF, nor did he
deny that some of this money was moved into
American bank accounts that he controlled and used
to make purchases in the United States.
The
disputed issue was whether the monies received by
Thiam were in fact a bribe paid in contemplation of,
or in exchange for, an official act as Minister of
-12-

Mines and Geology.
The government’s proof on this issue consisted
primarily of the testimony of two witnesses: Daouda
Camara, who was Senior Adviser to the Prime
Minister of Guinea during the relevant period, and
Mamadou Sande, who was Minister of Economy and
Finance. In addition, several emails between Thiam
and Sam Pa, the president of CIF, were introduced
into evidence. There was no testimony from Pa (who
was incarcerated in China) or from any other
individual associated with CIF.
Camara testified in pertinent part that
beginning in December 2008, Guinea had a
government that had been installed following a
military coup. (A476-77). The National Council for
Democracy (CNDD), which was constituted by the
military (A470), appointed a president, Captain
Moussa Dadis Camara (“President Dadis”).
(A462-63, 476). Under President Dadis was Prime
Minister Kabine Komara, and under Komara were
the members of the government. (A462-63, 476).
The minister of mines and geology was part of the
government and was part of the council of ministers.
(A470-71). The minister of mines, along with the
defense minister, the minister of public works, and
the minister of urbanism and habitat, held the rank
-13-

of minister of state. (A471).
Thiam became minister of mines on or about
January 14, 2009. (A478). His role was to effectuate
government policy and promote development of the
mining sector. (A479). Under the Guinean mining
code, he had power to grant licenses for research and
exploration, but significantly, couldn't grant
concessions such as the CIF was seeking, because
concessions were under the authority of the
president. (A480, 482, 562-63). Thus, defendant's
authority regarding negotiation of mining
concessions was strictly limited. (A559).
Camara learned of the CIF, not from Thiam,
but from Prime Minister Komara, who "gave
[Camara] a file regarding… the Chinese investors,
and asked [him] to take care of that." (A483).
Camara, not Thiam, was "in charge of the followup of
all of these activities." (A483). It was Camara who
studied the file and made the first presentation to a
group which included defendant as well as the prime
minister, certain other ministers, and
representatives of CIF including its principal Sam
Pa. (A483-85).
Thiam, Minister Boubacar Barry, and Prime
Minister Komara also spoke at this presentation
-14-

regarding infrastructure improvements that could be
made with the CIF investment.
(A487-88).
According to Camara, defendant didn't "give specific
details," but said that the investment would help
balance the budget and "bring some benefits to the
mining sector." (A491).
Notably, the government "didn't need any
particular promotions for the project," because all
sectors were enthusiastic about it and the need was
obvious. (A492, 602-03). Due to the coup, Guinea
was under international sanction (A556), and thus
desperately needed investment.
Later, a second meeting was held with the
entire council of ministers and the Chinese investors.
(A493-94).
Thiam "play[ed] the same role" in
"explain[ing] the project." (A495).
Camara described Thiam as the "primary
point of contact" with the Chinese investors because
they spoke English and Thiam was the best English
speaker among the ministers. (A496). However, the
person in charge of negotiating with the CIF was
Barry, who chaired the project steering committee
and was directly responsible to the Council of
Ministers regarding the decisions and orientations of
the CIF. (A497). Barry participated in all meetings
-15-

with the CIF in Conakry and also traveled to
Singapore and Hong Kong to negotiate the deal.
(A497-98).
Barry had privileged access to the
president, who as noted above, had authority over
mining concessions under Guinean law. (A498).
At some point after the initial meetings,
Camara was asked to participate in a technical
committee to examine the documents relating to the
CIF deal. (A496-97). There were 15 to 17 people in
this committee. (A497). The committee was to
report its results to the cabinet. (A497).
During its work, the committee received draft
agreements regarding the CIF deal, including a
preliminary memorandum, a framework agreement,
and a shareholder agreement. (A497-98). Each
agreement was conveyed to the committee by the
prime minister's office. (A498). The prime minister
told Camara that the documents "came from our
Chinese friends" and that Thiam's role was to
transmit them. (A499).
The memorandum was executed on June 6,
2009 and was signed on behalf of Guinea by
Mamadou Sande, the finance minister. (A500-02).
The person who signed for CIF was Jimmy Leung,
who drafted the documents on his computer.
-16-

(A502-03). The fact that a memorandum was signed
indicates that, by this time, both parties had a firm
understanding of their intentions. (A568-69).
The framework agreement, executed on June
12, 2009, was drafted by Jimmy Leung and given to
the prime minister via the minister of mines.
(A503-05). This agreement called for a holding
company, of which CIF would hold 75 percent and
Guinea would hold 25 percent, which would invest in
various infrastructure projects in exchange for a
mining concession. (A505-07). This agreement was
again signed by Sande on behalf of Guinea.
(A507-08).
The committee then received a draft of the
shareholder agreement via the same channels, i.e.,
CIF to the ministry of mines to the prime minister's
office. (A509). The agreement was dated October 10,
2009, and established a company called the Africa
Development Company (ADC) in which the
shareholders were the Republic of Guinea, CIF, and
China Sonangol International Singapore which was a
subsidiary of CIF. (A509-10). This was pursuant to
a collective decision that the project needed more
investors. (A510, 522, 576-78). It was initialed by
four ministers including Thiam. (A511).

-17-

China Sonangol, and certain additional mining
and mineral sectors, had also been included in
another version of the framework agreement dated
July 2009, which was apparently not seen by the
technical committee. (A529-32). Notably, there was
no indication that this second version of the
framework agreement was drafted, signed and/or
advocated for by Thiam, and indeed, Camara
acknowledged that Thiam didn't sign any of the draft
documents.
(A573, 605).
Instead, the revised
framework agreement was signed by Boubacar Barry
on behalf of Mamadou Sande. (A581-82).
Under the shareholder agreement, Guinea was
to receive 150 of 1000 shares of the ADC. (A513). In
addition, however, the agreement created a company
called the Guinea Development Company (GDC),
part of which was also directly owned by the
Republic of Guinea and which would be a subsidiary
of the ADC. (A514). This was done to ensure Guinea
the 25 percent share that had been previously
agreed. (A515). In exchange, the ADC would obtain
diamond, iron, bauxite, gold, oil and gas concessions.
(A515-17).
According to Camara, the technical committee
was concerned that the language of the agreement
might sacrifice too much of Guinea's sovereign rights
-18-

over its natural resources.
(A518).
Notably,
however, the concession was subject to "the
regulations in force," i.e. the Guinean mining code.
(A523, 546, 584). It also contained a severability
clause providing that any provision illegal under
Guinean law would be nullified while maintaining
the rest of the agreement. (A581, 584). Moreover,
Camara acknowledged that mining investors had to
be granted broad rights or else they would reject the
opportunities. (A524-25).
The committee presented these concerns to the
council of ministers including Thiam. (A518, 526-27).
Thiam stated that the concerns would be discussed
at a higher level: the president, the prime minister,
or Barry. (A528).
The prime minister indeed discussed these
concerns at meetings on October 7 and 8, 2009.
(A533). At the October 7 meeting, Camara again
presented the concerns on behalf of the committee.
(A534).
The committee recommended that the
original June framework agreement be the final
agreement. (A537-38). Then, on October 8, the full
council of ministers met, and Camara again
expressed his concerns. (A538-39). The council of
m i n i s t e r s , p r e s u m ably inc luding T h i a m ,
recommended that the exclusivity clause be stricken.
-19-

(A540). The prime minister drafted a letter to this
effect, which was addressed to Barry. (A596).
The final October 10, 2009 agreement
nevertheless contained the exclusivity clause.
(A540-41). However, there is no indication that
Thiam had anything to do with drafting the final
language, and indeed, the final version of the
agreement was then approved and signed by
Ministers Sande and Loholamou. (A592). Both of
these ministers were present at the October 8
meeting and were therefore fully aware of the
concerns.
(A628-29).
Again, Thiam wasn't a
signatory. (A605).
Camara never witnessed Thiam do anything
inappropriate with respect to the CIF agreement.
(A605).
Mamadou Sande, the other principal
government witness, testified that he was a former
colonel in the Guinean military (A672-73) who
became minister of finance after the 2008 coup and
who later, in February 2010, became minister of
energy (A673). After the coup, the country was in a
bad financial situation due to long-term
mismanagement under the former president. (A688).

-20-

Pursuant to the country's need for investment,
CIF approached President Dadis early in 2009,
following which the government was instructed to
prepare relevant agreements. (A689). Sande wasn't
present at the meetings with the president. (A690).
He believes that Sam Pa and another Chinese
investor named Jack were there. (A690, 701-02).
Notably, he didn't testify that Thiam took part in any
of the meetings with the presidency and couldn't
recall Thiam being there (A734), although he
identified Thiam in a photograph of a February 2010
meeting with the prime minister's office. (A705-06,
735).
A commission was set up to handle the CIF
deal which consisted of Sande, petitioner Thiam, and
Barry.
(A674).
Barry was the chair of the
commission. (A674, 686-87, 716). The president
wanted Barry as chair. (A731). In addition, the CIF
deal was discussed at meetings of the full council of
ministers which were chaired by the prime minister.
(A704-05).
Sande wasn't a specialist in mining. (A705).
He testified that although he signed the
memorandum of understanding on behalf of the
government, he didn't negotiate it. (A707). The
president asked him to sign. (A708). He likewise
-21-

signed the framework agreement on the president's
instructions. (A709-10, 714). He additionally signed
an agreement for a $78 million loan from CIF which
Guinea did receive. (A711-13).
Sande didn't attend or take part in the actual
negotiations with CIF (A713, 716) and didn't know
who did the negotiating (A716). At one point,
however, a trip to China was arranged to meet with
CIF, and the president asked Sande to sign a power
of attorney so that Barry, not Thiam, could negotiate
on his behalf. (A717-20). Barry signed the document
resulting from that trip. (A722-23). Neither Barry
nor Thiam discussed the trip with Sande. (A723).
As to the final shareholder agreement, Sande
testified that he had no role in negotiating it and
signed it on the president's direct instructions.
(A724-25, 740).
Thiam was "not one of the
signatories."
(A726).
Sande didn't attend any
meetings regarding this agreement, including the
October 8, 2009 Council of Ministers meeting.
(A727). Significantly, however, he testified that
before signing the document, he consulted with the
president, who said that the document was correct.
(A740-41). In addition, all three agreements had the
approval of the council of ministers. (A742).

-22-

Notably, Sande testified that ministers were
required to obey the government's discipline,
meaning that when decisions were adopted by the
government, individual ministers had to follow them.
(A685-86). Guinea had a strong presidential system
in which the president was the most powerful figure
(A729) and it was the duty of ministers to obey the
president (A739-40). As noted above, he was firm
throughout his testimony that his orders came
directly from the president and that it was the
president's desire to have all three CIF agreements
implicated (A736), and didn't testify that Thiam
pressured or advocated with him at any point.
In addition to Camara's and Sande's
testimony, the Government presented evidence of
eight emails via FBI agent Patrick Killeen:
*

An email from Thiam to Bao Wen
Chen dated June 6, 2009, stating
that a CIF delegation headed by
Sam Pa and Lo Fung Hung was
visiting Conakry (the Guinean
capital) and asking if Bao Wen
Chen knew them (A757-58);

*

An email from Thiam to Baker
Al-Sadi dated June 13, 2009,
-23-

stating in pertinent part that
defendant had "developed [a]
great relationship" with the CIF
and Sonangol chairmen and that
there were "great prospects"
(A759);
*

An email from Jimmy Leong to
defendant dated July 2, 2009,
forwarding documents to him for
implementation by the
government (A762);

*

An email from Thiam to the
prime minister dated July 9,
2009, reporting on what
happened during the visit to
Singapore. In pertinent part, the
email reports that documents
were signed and that "the
different corporate partners of
the [investment] group… gave a
presentation of their respective
capacities and their views on the
task to be completed in Guinea as
well." The Guinean and Chinese
parties postponed the signing of
other documents pending "the
-24-

arrival of the minister of state
[Barry]." Further, an issue arose
regarding whether Guinea's
share of the project would be 15,
20, or 25 percent, and that when
Thiam brought this up, the CIF
board indicated that it would
"assess" the proposal that "ADC
not own 100 percent of these local
GDC subsidiaries but only up to
80 or 90 percent." (A763-65);
*

An email chain of July 13, 2009
in which Lamine Fofana passed
on certain proposed amendments
to Thiam, who in turn passed
them on to Jimmy Leong
(A767-68);

*

An email from Madame Lo (Lo
Fung Hung), dated August 4,
2009 and addressed to a number
of people including defendant,
indicating that the press was
interested in CIF's work in
Guinea, which defendant followed
up by extending a social
invitation to her and inviting her
-25-

to select a bedsheet designed by
his wife (A769-70);
*

An email chain of August 30-31,
2009, in which Thiam passes on
an inquiry from the president
about why Sam Pa had not
communicated in a while, and
upon learning that Pa's father
had died, expressing personal
condolences (A771-73, 1195-96);
and

*

An email from Thiam to Barry on
September 22, 2009, indicating
that Thiam was in Istanbul and
on his way to meet Barry in Hong
Kong and that he "hope[d]
everything [was] going well
there.” (A773).

Agent Killeen further testified that Thiam
established an account at HSBC Hong Kong on
September 24, 2009 (A773), that $3 million was
wired from Sonangol to Sam Pa and then from Sam
Pa to defendant on September 25-26 (A777-82,
791-96), that $3 million more was wired from
Sonangol to Wang Xiang-Fei and then to Thiam to be
-26-

received on March 15, 2010 (A797-804), that a
further $2 million was sent from Sam Pa and Lo
Fung Hung (who had earlier received the sum of $20
million from Sonangol) to Thiam on June 2, 2010
(A806-12), and that $500,000 was deposited from the
Lo/Pa account (which had earlier received
approximately $10.6 million from Sonangol) into the
Thiam account on November 29, 2010 (A813-18). In
total, Thiam received $8.5 million. (A818-19).
Further evidence was adduced concerning
banking transactions made with the funds at issue,
none of which were disputed, as well as various
purchases made by Thiam including a house in
Dutchess County, and representations allegedly
made by him to bank officials.
On the defense case, petitioner called Momo
Sakho, who at the relevant time was the adviser in
charge of national resources for the Guinean military
government. (A1023). He testified that as minister
of mines, Thiam was under the president's direct
authority (A1040). President Dadis was strong-willed
and easily provoked, and "didn't entertain contrary
opinions" or listen to advice from members of the
government. (A1024-26). At one time, Dadis went so
far as to arrest advisors who gave him advice he
didn't like. (A1025).
-27-

Boubacar Barry had been Dadis' personal
friend from childhood and was thus someone the
president trusted. (A1028). Only the minister of
defense was more powerful within the cabinet than
Barry. (A1040-41).
Sakho stated that the mining code in force in
Guinea in 2009 required 15 percent participation by
the government in any deal with a foreign mining
company. (A1032).
He recalled that Thiam was on the commission
that dealt with the CIF investment but wasn't the
head of it; instead, that role belonged to Barry.
(A1037, 1041). Sakho didn't negotiate the CIF deal
and didn't know what role, if any, defendant had in
negotiating it. (A1038).
Petitioner Thiam took the stand in his
defense. He testified that he grew up in exile from
age five because the dictator of Guinea at the time
killed most of his family (A1050) and, after coming to
the United States in his late teens, graduated from
Cornell University and amassed an extensive and
successful background in finance, including finance
in the mining sector. (A1050-57, 1062-63), During
this time, he began doing business with Baker
-28-

al-Sadi. (A1057).
About a week after the 2008 coup, Prime
Minister Komara, who knew Thiam, asked him to be
minister of mining in light of his finance background.
(A1058-61, 1063-64). After hesitating due to the
state of his personal finances and concern about his
safety in Guinea, he agreed to accept the post.
(A1065-67). He met with al-Sadi, who agreed to
make funds available for Thiam's and his family's
use. (A1067-68, 1069-71).
Thiam described his role in the CIF deal
consistently with Camara's and Sande's testimony.
In particular, during his first meeting with President
Dadis, Thiam was asked to recommend the five most
promising projects for the mining sector, of which
CIF wasn't one. (A1071-74). The first months of his
tenure was spent developing projects other than CIF,
which were considered urgent due to the effect of
poverty and international sanctions on Guinea.
(A1075-77). Instead, he only heard of CIF months
later, in May or June 2009, when Barry ordered him
to meet the Chinese investors in a hotel downtown.
(A1074-75).
That meeting consisted of a "getting to know
you" session in which Thiam talked with the CIF
-29-

investors about what their company was and what it
might do. (A1078-79). The CIF delegates told Thiam
that they had already had a series of meetings with
Dadis and Barry. (A1079). They told Thiam they
had partnered successfully with Angola and wanted
to do the same in Guinea. (A1080-81).
Defendant asked them to bring their Angolan
partner for a meeting, and also sent messages out to
friends in the finance sector to check CIF out.
(A1081-82). The president said he would wait to
meet Manuel Vicente, the Angolan partner, but that
he had "pretty much decided" to do business with
CIF. (A1083-84). About ten days later, Sam Pa
brought Vicente and an assistant to Conakry and
Thiam took them to meet with the president, who
spoke directly with them and gave a reception for
them. (A1084-85). This meeting was what Thiam
referred to in the "great relationships" email to
Al-Sadi. (A1179-80).
It was then decided that the prime minister
would take over and that a team headed by Barry
would go to Singapore to meet with CIF. (A1085-86).
Thiam also arrived in Singapore but had to wait
until Barry got there because Barry was the only one
authorized to negotiate and sign documents. (A1087,
1093). The technical teams from Guinea and CIF, of
-30-

which Thiam wasn't part, drafted the documents,
including but not limited to the July 2009 version of
the framework agreement.
(A1087-88, 1126).
Thiam's only contribution to the framework was to
make sure Guinea got paid in advance and that it
would only have to repay CIF if the venture was
profitable. (A1090-92).
Thiam reported back to the prime minister
concerning the Singapore meeting, which was the
fourth email testified to by Agent Killeen. (A1093).
Defendant's testified consistently with the email,
specifically that he raised an issue concerning
Guinea obtaining a 15 rather than 25 percent share
and that, in response to this issue, it was suggested
that Guinea also receive a share of the local
development company, which would increase
Guinea's effective share of the profits to 27 percent.
(A1093-94, 1183). This proposal was subject to
approval by the CIF board and the Guinean cabinet;
defendant couldn't agree to it on his own authority.
(A1096-97, 1184, 1226-27). The suggestion was
accepted. (A1185). Thereafter, Barry signed the
documents. (A1097).
During later stages of the process, Thiam
forwarded documents from the Guinean government
to CIF and vice versa as reflected in the emails.
-31-

(A1098-99, 1124-25, 1189-91). He didn't determine
what documents were necessary, but simply sent
each side what it asked for. (A1125). He also made
three or four trips which most often involved visiting
factories in China which would supply the project as
well as social lunches, dinners and sightseeing trips.
(A1100, 1128-29).
Thiam didn't draft or sign the final agreement.
(A1126, 1129). He testified, as to the concerns raised
by Camara, that the government collectively
determined that these concerns were based on a
misreading of the document because the severability
clause and the clause making the agreement subject
to Guinean mining law protected Guinea.
(A1126-28). These concerns were discussed with
Barry, the prime minister, and the president,
because they were "way over [defendant's] head."
(A1127).
The president instructed the prime
minister to proceed. (A1128).
Thiam testified that he didn't receive bribes
from any one associated with CIF or Sonangol.
(A1129-30). He stated that he received $8.5 million
from Sam Pa as a personal loan, and that he asked
Pa for the loan because Pa was the only person he
knew who had essentially unlimited funds. (A1134).
He was badly in need of money because his
-32-

pre-existing income ran out and he wasn't being paid
a salary for his Guinean government service.
(A1135-36).
He spent the money on expenses
including housing and travel, much of which was
official. (A1229-31).
The loan was based on a verbal agreement
with no set terms. (A1170). The money was
deposited in the Hong Kong account, which he
opened with Pa's help due to the sanctions regime.
(A1138, 1173). He believes that the transfers from
persons other than Sam Pa, such as Wang Xiang-Fei
who was an employee of Sam Pa, were done on Pa's
instructions. (A1225). The loan from Sam Pa wasn't
a quid pro quo. (A1136-37). The loan has since been
forgiven. (A1173).
On the advice of tax professionals, Thiam
declared the payments as income on his tax returns
because it was an undocumented loan. (A1232).
Defendant further testified that he didn't
advise bank officials of his Guinean position because
this would render him a "PEP," or politically exposed
person, and result in the bank closing his account.
(A1139, 1141-42, 1143-44, 1152). Nor did he state
that the money was an informal personal loan
because this too would lead to questions being asked
-33-

and the account being closed. (A1157-58). This
indeed happened once his position came to light.
(A1140, 1142).
The Dutchess County house was purchased
together with a partner in Mozambique with the
intent of renovating and renting it. (A1144-47).
Peitioner had received informal loans from this
partner and from other acquaintances on a similar
basis to his testimony regarding the payments
received from Sam Pa. (A1147-50).
The district court, rejecting petitioner’s
proposed jury instruction (A294), charged the jury
that an offense under Section 192 of the Guinean
Penal Code involved the following elements:
(1) At the time of the alleged
offense, the defendant was an agent or
official of a public administration or a
citizen in charge of a public service
ministry…
(2) The defendant knowingly
solicited or received something of value
outside of or beyond the defendant's
government salary.

-34-

(3) The defendant's solicitation or
receipt of the thing of value was in
return for engaging in an act or
refraining from engaging in an act. It is
irrelevant whether the act in question
was "fair... or not." In other words, it is
irrelevant whether the defendant might
have lawfully and properly engaged (or
refrained from engaging) in the act. It is
also irrelevant whether the defendant
was the final or only decision maker or
even able to achieve the objective of the
bribe.
(4) The act fell within the scope of
the defendant's job or function as the
minister of mines.
(A1308-09). Regarding Article 194, the district court
charged the jury in pertinent part that the offense
required that "[a] thing of value was offered or given
to the public official to influence that public official to
engage in an act or to refrain from engaging in an
act," and that "[t]he act in question was within the
scope of the public official's job function or position."
(A1310).
At no point during the charge did the district
-35-

court instruct the jury, pursuant to McDonnell v.
United States, 136 S. Ct. 2355, 2371-72 (2016), that
the act or contemplated act for which the bribe is
paid must constitute a "formal exercise of
governmental power" and/or that "[s]etting up a
meeting, talking to another official, or organizing an
event (or agreeing to do so)-without more" doesn't
constitute an official act.
Petitioner made an oral motion for acquittal,
which the district court denied. (A1349-81). At the
conclusion of trial, the jury convicted petitioner on
both counts (A1344-45) and he was subsequently
sentenced to 84 months’ imprisonment.
B.

The Appeal.

Petitioner timely appealed to the Second
Circuit Court of Appeals (A1389) and, in his brief to
that Court, argued inter alia that when the Guinean
Penal Code is used as a predicate for prosecution in
an American court, it must be construed in
conformance with American constitutional
limitations, including the prohibition against
prosecution based on vague criminal laws. Petitioner
further argued that, in the case of the Guinean
statutes at issue, the relevant constitutional
limitation was set forth in McDonnell, supra,
-36-

because those statutes required acts comparable to
the “official act” element of the statute construed by
the McDonnell Court. Petitioner contended both
that the trial evidence was insufficient under
McDonnell and that the jury instructions were
defective because a McDonnell charge was not given.
Respondent submitted a brief in opposition, to
which petitioner replied, and argument was held in
due course.
By decision issued August 5, 2019, the Second
Circuit affirmed petitioner’s conviction. (App. 1-18).2
As to the McDonnell issue, the court stated that
“[p]rinciples of international comity... counsel against
applying the ‘official act’ definition set forth in
McDonnell to... Gunea’s Penal Code because this
would require us to interpret Guinean law and, in
doing so, limit conduct that Guinea has chosen to
criminalize.” (App. 9). The court indicated that
although Thiam had not been prosecuted in Guinea,
“presumably he could have been, and our
interpretation of Guinean statutes at issue here
should not vary depending on that event.” (App. 10).

2

Citations to “App.” refer to the appendix to this
Petition.
-37-

The Second Circuit stated further that its own
precedents did not support application of McDonnell
beyond the context of honest services fraud and
Hobbs Act extortion (App. 10-11), and that although
the Guinean statutes at issue bore “some similarity”
to 18 U.S.C. § 201, “this is unremarkable given that
all three statutes relate to bribery” and “Articles 192
and 194... plainly cover more than official acts.”
(App. 11-12).
Finally, the Second Circuit rejected
petitioner’s argument that the McDonnell Court’s
“concern that a broad definitoin would chill
legitimate activities of government officials and...
nod toward federalism,” applied in the context of
offenses predicated upon Guinean law. (App. 12-13).
“Putting aside the fact that Thima did not hold
elected office,” the court stated that the nature of his
relationship with a Chinese company, “constituent or
not, does not concern a United States court,” and
there was no concern with federalism “where the
conduct at issue is one that another country has
chosen to criminalize and has no bearing on state
law.” (App. 13).

Now, petitioner seeks certiorari as to all
grounds raised before the Second Circuit, and for the
-38-

reasons set forth below, his petition should be
granted.
REASONS FOR GRANTING THE WRIT
POINT I
WHERE A FOREIGN BRIBERY
STATUTE IS A PREDICATE TO
PROSECUTION IN A UNITED
STATES COURT, THE LIMITATIONS
OF McDONNELL APPLY
1.
Since at least the 1970s, the federal
penal code has targeted American citizens who
allegedly performed corrupt acts outside the United
States. In some cases, such as the Foreign Corrupt
Practices Act, 15 U.S.C. § 78dd-1 et. seq., the
prohibited acts are written into the federal
legislation. In others, such as the instant case, the
prohibited conduct involves transactions in the
proceeds of “an offense against a foreign nation,” see
18 U.S.C. § 1956(c)(7) which must be determined
with reference to that nation’s own laws.
Several categories of “offense against a foreign
nation” may serve as predicates for prosecution,
including, as relevant here, violation of foreign
-39-

statutes involving bribery of public officials. See 18
U.S.C. § 1956(c)(7)(iv). The foreign bribery statutes
included in this category are of varying scope, and
some of them are worded with comparable breadth to
federal statutes, such as 18 U.S.C. §§ 201 and 1346,
that this Court has cabined due to overbreadth and
vagueness concerns. This raises the question of
whether, when such foreign statutes are used as
predicates for prosecution in an American court, such
statutes must be construed in accordance with
American constitutional limitations.
The Fifth
Circuit in United States v. McClain, 593 F,2d 658,
670 (5th Cir. 1979), held that they must; the Second
Circuit in this case held that they need not.
The defendant in McClain was prosecuted
under the National Stolen Property Act, 18 U.S.C. §
2314, for importing artifacts in violation of Mexican
antiquities law. The court noted that, during a
certain part of the period in which the artifacts were
imported, Mexican law was ambiguous as to whether
the government of Mexico laid claim to all antiquities
as public property. The Fifth Circuit found that
reversal was required as to the convictions
encompassing this period, because "under th[e broad]
view of Mexican law [advocated by the Government],
we believe the defendants may have suffered the
prejudice of being convicted pursuant to laws that
-40-

were too vague to be a predicate for criminal liability
under our jurisprudential standards." Id. (emphasis
added); see also United States v. One Tyrannosaurus
Bataar Skeleton, 2012 WL 5834899, *8 & n.7
(S.D.N.Y. 2012) (in National Stolen Property Act
prosecution involving dinosaur skeleton imported
from Mongolia, the defendant "may ultimately
prevail by demonstrating that [the underlying]
Mongolian law is improperly vague").
Petitioner submits that the McClain court
properly held that, when a foreign statute is used as
a predicate for prosecution in an American court, it
must be construed and limited in accordance with
American principles of due process, vagueness, and
overbreadth. Moreover, petitioner submits that the
Second Circuit’s contrary conclusion in this case
rests upon a flawed foundation. In particular, the
Second Circuit invoked the doctrine of international
comity in support of its conclusion that the American
courts should not “limit conduct that Guinea has
chosen to criminalize” (App. 9) – but construing
Guinean law in accordance with American
constitutional limitations when used as part of a
criminal prosecution in an American court would not
“limit” Guinea in the least. As this Court recently
recognized in Animal Science Prods., Inc. v. Hebei
Welcome Pharmaceutical Co., Ltd., 138 S. Ct. 1865
-41-

(2018), foreign governments’ interpretation of their
own laws are not binding on American courts or vice
versa. The Guinean courts would not be bound by
American courts’ construction of Guinean law, and in
any bribery prosecution in Guinea, those courts could
administer domestic law as they see fit, subject to
whatever due process provisions may exist in the
Guinean constitution.
Indeed, if anything, the principle of
international comity requires that the American
courts tread with caution in cases such as this. As
the Second Circuit stated, this doctrine calls upon
American courts to “refuse to review acts of foreign
governments and defer to proceedings taking place in
foreign countries.” (App. 9). In this case, Guinea
chose not to prosecute Thiam, even though the
military government in which he served is no longer
in office and the successor government was elected
on a promise to make a clean break from military
rule. If the American courts are to “refuse to review
acts of foreign governments,” then deference is due to
Guinea’s decision not to prosecute Thiam
(notwithstanding the circuit court’s suggestion that
he “presumably’” could have been – the deference in
question is to foreign governments’ actual, not their
hypothetical, acts), and the courts in this country
should be chary of construing Guinean law so
-42-

broadly as to reach conduct that Guinea itself has
not prosecuted.
But in any event, international comity is not
really the issue here. Thiam was prosecuted in an
American court under American law for which the
Guinean statute served as a predicate, and as a
defendant in an American court, he was entitled to
the protections of the United States Constitution. As
the McClain court recognized, the Constitution
should not countenance a system in which
defendants charged with crimes involving predicate
foreign offenses are entitled to less due process than
those who are not. “Our jurisprudential standards” –
those of the United States Constitution – should
apply to all statutes submitted to a jury as part of an
American prosecution, whether those stautes are
American or foreign. See McClain, 593 F.2d at 670.
2.
In connection with Sections 192 and 194
of the Guinean Penal Code, the relevant
constitutional limitations are those set forth by this
Court in McDonnell v. United States, 136 S. Ct. 2355
(2016). McDonnell, a former governor of Virginia,
was prosecuted for Hobbs Act extortion, honest
services fraud, and related conspiracy statutes, with
the duty of honest services defined with reference to
the federal bribery statute. Id. at 2365. This
-43-

statute, 18 U.S.C. § 201, required proof that
McDonnell accepted or agreed to accept something of
value "in return for being influenced in the
performance of any official act." Id.
This Court held that the term “official act”
included only “formal exercise[s] of governmental
power,” and that an official act must be “something
within... the function conferred by the authority of
[the defendant’s] office.” Id. at 2368-69. Meetings,
phone calls, and the like do not rise to the level of an
official act. Id. at 2370-71. Indeed, even “expressing
support for [a proposed act] at such a meeting, event
or call” does not qualify as an official act so long as
the defendant does not exert pressure or advocate for
another official to perform an official act. Id. at
2371.
This Court’s holding was based on both textual
and extra-textual factors. In addition to the specific
text of 18 U.S.C. § 201, this Court stated that the
same holding was required by “significant
constitutional concerns.” Id. at 2372. These included
the fact that "conscientious public officials arrange
meetings for constituents, contact other officials on
their behalf, and include them in events all the
time," and therefore, a broad interpretation of the
bribery statute might leave officials "wonder[ing]
-44-

whether they could respond to even the most
commonplace requests for assistance." Id.
Moreover - and critically - a broader
conception of official act "is not defined with
sufficient definiteness that ordinary people can
understand what conduct is prohibited, or in a
manner that doesn't encourage arbitrary and
discriminatory enforcement." Id. at 2373. In other
words, such a broad conception would be vague and
wouldn't comport with constitutional due process.
Id. "[The Court's] more constrained interpretation…
avoids this vagueness shoal." Id.
Furthermore, a broad interpretation of "official
act" which leaves its outer boundaries ambiguous
would "involve[] the Federal Government in setting
standards of good government for local and state
officials." Id.
These concerns apply with no less force in
cases involving foreign officials. Notwithstanding
the Second Circuit’s statement that there are
“obviously” no federalism concerns where the conduct
at issue “has no bearing on state law” (A13), the
federal courts have no more business – and perhaps
even less business – setting standards of good
government for foreign officials as for state and local
-45-

officials. Moreover, in Animal Science Prods., supra,
this Court expressed a preference for foreign statutes
to be interpreted analogously to the laws of American
states, see Animal Science Prods., 138 S. Ct. at 1874
(finding Second Circuit’s method of interpreting
foreign law “inconsistent with... this Court’s
treatment of analogous submissions from States of
the United States”), and thus, it is apparent that
quasi-federalist concerns exist where the American
courts extend their reach to interpretations of foreign
law.
Moreover, the Second Circuit’s suggestion to
the contrary notwithstanding, this Court should
have at least ss much concern with chilling the
constituent-service activities of foreign officials as
with chilling the activities of state and local officials.
Foreign officials, exercising their responsibilities and
powers outside the United States, should not do so
under the threat of having their conduct examined
microscopically by an American court. Moreover,
there is nothing in McDonnell limiting this Court’s
concern to elected officials; appointed officials also
perform vital governmental functions, and they, too,
are entitled to arrange meetings, make calls, and
speak up at conferences without having to wonder
whether they could lawfully “respond to even the
most commonplace requests for assistance.”
-46-

Thiam, as Minister of Mines and Geology, was
responsible for promoting economic development in
Guinea’s mining sector. Doing so was a service to his
constituents, and his meetings with CIF were
undertaken as part of the type of service
contemplated by McDonnell. Although the Second
Circuit blithely dismissed Thiam’s interaction with
CIF as a relationship that “does not concern a United
States court” (App. 12), it clearly does concern the
American courts when that relationship is used as a
predicate for prosecution in the United States.
In sum, foreign officials perform the same
governmental functions as state and local officials,
and their exercise of their functions and powers
should not be chilled by the threat of American
prosecution any more than state and local officials
should be – which means that, where a foreign
bribery statute is used as a predicate for prosecution
under 18 U.S.C. § 1956 or any other federal criminal
statute, it should be construed in pari materia with
Section 201 and should be limited in the same way
that Section 201 was limited in McDonnell.
And finally, the text of the Guinean statutes in
question provides further support for construing
them in accordance with McDonnell. As defined at
trial, Section 192 refers to "perform[ing] or
-47-

refrain[ing] from performing an act within the scope
of [a public official's] functions or job," and Section
194 refers to "the favors or advantages set forth in
Article 192." Thus, both statutes require (a) an act;
(b) within the scope of an official's functions. An act
in a public servant's official capacity is simply
another way to say "official act." Moreover, Section
192 requires the act to be "within" an official
function, thus incorporating a similar limitation of
punishable conduct to exercises of official power.
Thus, contrary to the Second Circuit’s holding,
the Guinean statutes in question are not broader
than Section 201, much less “plainly” so (App. 12).
The Guinean Penal Code, like Section 201, requires
"something within the specific duties of an official's
position - the function conferred by the authority of
his office," see McDonnell, 136 S. Ct. at 2369, and
should thus be subject to the same construction.
3.
Application of McDonnell to this case
requires reversal, both because the jury was not
instructed in accordance with McDonnell’s
limitations and because the proof at trial was
insufficient to overcome those limitations.
As
discussed in the Statement of Facts, not only was
there no direct evidence of a quid pro quo – mere
temporal proximity between conduct and payments
-48-

does not a quid pro quo make, see United States v.
Menendez, 291 F. Supp. 3d 606, 624 (D.N.J. 2018),;
United States v. Siegelman, 640 F.3d 1159, 1171
(11th Cir. 2011) – but much of the proof at trial
consisted of Thiam arranging and attending
meetings, making calls, and forwarding emails –
precisely the type of conduct that this Court found
not to rise to the level of an official act. At most,
Thiam “express[ed] support for” the CIF deal at the
meetings, which is also not an official act.
McDonnell, 136 S. Ct. at 2371; United States v.
Jefferson, 289 F. Supp. 3d 717, 738-39 (E.D. Va.
2017) (making “encouraging statements” about a
product to be tested, and sending letters to embassy
officials expressing support for granting a visa to a
Kenyan national, were not official acts). There was
no evidence whatsoever that Thiam's statements
regarding the benefits of the deal constituted official
pressure or even that Thiam was in a position to
exercise such pressure over ministers higher ranking
than himself.
This in itself is enough to require a new trial.
In its summation, the government urged the jury to
convict Thiam on the basis that he was “the one
sending emails” (A1249), that he “admit[ted] sending
emails back to clarify different points of the deal”
(A1250), and that his culpable acts included
-49-

“standing up and making statements in support of
pursuing the deal” at the “early meetings” (A124849). Since the jury delivered a general verdict, it is
not possible to determine whether it convicted Thiam
based on the emails and meetings or based on the
other conduct he was alleged to have committed.
Thus, while a properly instructed jury arguably
might have convicted Thiam, that does not mean
that such a jury necessarily would have convicted
him. As in McDonnell itself, and as in such cases as
Skilling v. United States, 561 U.S. 358 (2010), the
absence of proper instructions requires a new trial.
But this Court may go farther than that and
dismiss the charges against Thiam outright for
insufficiency, because his alleged acts other than
meetings and emails – initialing the final agreement
and “heading” the delegation to Singapore – were
also not official acts. It is undisputed that Thiam
wasn't a signatory to the agreement, nor was he the
one to approve its terms. (A592, 605, 726-27, 740-42).
His initials simply mean that he was present when
the agreement was approved by others. They added
nothing to the approval that had already been
executed by the president and prime minister. To
characterize an acknowledgment of presence as an
official act would render McDonnell a nullity.

-50-

Similarly, with respect to the government’s
contention that Thiam "headed" the delegation that
attended the July 2009 Singapore meeting and
"suggested" a compromise which was incorporated in
a revised Framework Agreement, the word "suggest"
says it all. As the government did not dispute,
Thiam had no power to approve the compromise or
even to exert pressure for its approval, because the
officials who would have to approve ranked higher
than he did. Indeed, this wasn't even a situation
where Thiam could anticipate that the president and
prime minster would rely on his suggestion, because
as the government's own witnesses testified, (a) the
president was an autocratic figure who followed his
own desires and was determined to push the project
through (A729, 736, 739-40), and (b) the power of
attorney to negotiate on behalf of the president was
given to Boubacar Barry, not to Thiam (A717-20).
Thiam’s role in the events underlying this case
was that of a functionary – albeit a functionary with
the title of “minister” – and nothing he did involved
an act of official authority or official pressure. The
acts he allegedly committed are not acts that
McDonnell allows the government to punish. This
Court should accordingly grant certiorari to review
the applicability of McDonnell to the Guinean
statutes at issue and to grant appropriate relief.
-51-

CONCLUSION
In light of the foregoing, this Court should
grant certiorari on all issues raised in this Petition.
Upon granting certiorari, this Court should reverse
the decisions of the Second Circuit and dismiss the
charges or remand for a new trial.
Dated:

New York, NY
November 4, 2019
Respectfully Submitted,
JONATHAN I. EDELSTEIN
Attorney for Petitioner
Edelstein & Grossman
501 Fifth Avenue, Suite 514
New York, NY 10017
(212) 871-0571

-52-

DECISION OF THE UNITED STATES
COURT OF APPEALS FOR
THE SECOND CIRCUIT
DATED AUGUST 5, 2019
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________
AUGUST TERM, 2018
ARGUED: OCTOBER 9, 2018
DECIDED: AUGUST 5, 2019
No. 17-2765
UNITED STATES OF AMERICA,

Appellee,
v.
MAHMOUD THIAM,

Defendant-Appellant.
________
Appeal from the United States District Court
for the Southern District of New York
- App. 1-

No. 17-cr-0047 (DLC) - Denise L. Cote, Judge.
________
Before: WALKER and LOHIER, Circuit Judges, and
PAULEY, District Judge.*
________
Defendant Mahmoud Thiam (“Thiam”) appeals
from a judgment entered in the United States
District Court for the Southern District of New York
following a jury trial before Denise L. Cote, Judge,
convicting him of money laundering and conducting
transactions in property criminally derived through
bribery in the Republic of Guinea. On appeal, Thiam
challenges his conviction, arguing (i) that the district
court's jury instructions were erroneous because they
failed to include the definition of “official act” relative
to a bribery conviction, as set forth in McDonnell v.
United States, ––– U.S. ––––, 136 S. Ct. 2355, 195
L.Ed.2d 639 (2016); (ii) that there was insufficient
evidence (a) to support a finding of a quid pro quo
exchange necessary for his conviction and (b) to
support a finding that he committed an “official act”
____________
* Judge William H. Pauley III, United States
District Judge for the Southern District of New York,
sitting by designation.
- App. 2-

as defined in McDonnell; and (iii) that several
evidentiary rulings by the district court were
erroneous. For the reasons set forth below, we
AFFIRM the judgment of the district court.
________
ELISHA J. KOBRE (Christopher J. DiMase, Daniel
B. Tehrani, on the brief), Assistant United States
Attorneys, Lorinda I. Laryea, Trial Attorney, Fraud
Section, Criminal Division, United States
Department of Justice, for Geoffrey S. Berman,
United States Attorney for the Southern District of
New York, New York, NY, for Appellee.
JONATHAN I. EDELSTEIN, Edelstein & Grossman,
New York, NY, for Defendant-Appellant.
________
JOHN M. WALKER, JR., Circuit Judge:
Defendant Mahmoud Thiam (“Thiam”) appeals
from a judgment entered in the United States
District Court for the Southern District of New York
following a jury trial before Denise L. Cote, Judge,
convicting him of money laundering and conducting
transactions in property criminally derived through
bribery in the Republic of Guinea. On appeal, Thiam
challenges his conviction, arguing (i) that the district
- App. 3-

court's jury instructions were erroneous because they
failed to include the definition of “official act” relative
to a bribery conviction, as set forth in McDonnell v.
United States, ––– U.S. ––––, 136 S. Ct. 2355, 195
L.Ed.2d 639 (2016); (ii) that there was insufficient
evidence (a) to support a finding of a quid pro quo
exchange necessary for his conviction and (b) to
support a finding that he committed an “official act”
as defined in McDonnell; and (iii) that several
evidentiary rulings by the district court were
erroneous. For the reasons set forth below, we
AFFIRM the judgment of the district court.
BACKGROUND
Thiam appeals from a judgment, after a jury
trial, convicting him of money laundering in violation
of 18 U.S.C. §§ 1956(a)(1)(B) and 1956(f) and of
conducting transactions in criminally derived
property in violation of 18 U.S.C. § 1957. Both
statutes prohibit certain transactions involving
proceeds of “specified unlawful activity.”2 In relevant
part, both 18 U.S.C. §§ 1956(c)(7)(B)(iv) and
1957(f)(3) define “specified unlawful activity” as “an
offense against a foreign nation involving ... bribery
of a public official,” in violation also of the laws of.
________
2
18 U.S.C. §§ 1956(a) and 1957(a).
- App. 4-

that foreign nation.
Thiam, a United States citizen, was Minister
of Mines and Geology of the Republic of Guinea in
2009 and 2010, in which capacity he received an $
8.5 million bribe from a Chinese entity in return for
supporting a Chinese joint venture with Guinea.
Specifically, in the spring of 2009, Guinea entered
into negotiations with the China International Fund
(“CIF”), a Chinese company, to form a joint venture
that would invest in various projects in Guinea,
including mining concessions. As Guinea's Minister
of Mines and Geology, Thiam bore responsibility for
negotiating many of the terms of the joint venture,
which was documented by a Memorandum of
Understanding, a Framework Agreement, and a
Shareholder's Agreement.
Approximately two weeks before the
Shareholder's Agreement was executed, Sam Pa
(“Pa”), the head of CIF, transferred $ 3 million into a
bank account in Thiam's name at HSBC in Hong
Kong. Five days later, a conglomerate associated
with CIF reimbursed Pa. Between March and
November 2010, the conglomerate transferred
another $ 5.5 million to Thiam's Hong Kong account
by funneling the funds through Pa and other
executives. Starting in September 2009, Thiam
- App. 5-

transferred cash from his Hong Kong account to
accounts in the United States and to other
transferees, including vendors of various luxury
items. Thiam also lied to banks about his
employment, nationality, and income when opening
accounts in Hong Kong and the United States. In his
defense, Thiam testified at trial that the money he
received from Pa was an undocumented personal
loan with no interest rate or repayment date. The
jury rejected this defense and convicted Thiam on
both counts. This appeal followed.
At trial, the government proved violations of
Articles 192 and 194 of Guinea's Penal Code as the
predicate “offense against a foreign nation involving
... bribery of a public official,” as required by 18
U.S.C. §§ 1956(c)(7)(B)(iv) and 1957(f)(3). Articles
192 and 194 of Guinea's Penal Code criminalize
“passive corruption,” or the receipt of bribes by a
public official, and “active corruption,” or the
payment of bribes to a public official, respectively.
The government presented a sworn affidavit from a
former Guinean Minister of Justice and law
professor at the University of Conakry in Guinea
explaining the meaning and elements of a violation
of Articles 192 and 194. With the consent of both
parties, the jury was instructed regarding Articles
192 and 194 in accordance with this affidavit.
- App. 6-

DISCUSSION
On appeal, Thiam attacks his conviction,
arguing (i) that the district court's jury instructions
were erroneous because they failed to include the
definition of “official act” relative to a bribery
conviction, as set forth in McDonnell v. United
States, ––– U.S. ––––, 136 S. Ct. 2355, 195 L.Ed.2d
639 (2016); (ii) that there was insufficient evidence
(a) to support a finding of a quid pro quo exchange
necessary for his conviction and (b) to support a
finding that he committed an “official act” as defined
in McDonnell; and (iii) that several evidentiary
rulings by the district court were erroneous. For the
reasons set forth below, none of these arguments has
merit.
I. Jury Instructions
“Generally, the propriety of jury instructions is
a matter of law that is reviewed de novo,” under a
harmless error standard if the defendant objected to
the jury instructions at trial and a plain error
standard if he did not.3 On appeal, Thiam argues
that the jury instructions were erroneous because
__________
3
United States v. Botti, 711 F.3d 299, 307–08
(2d Cir. 2013).
- App. 7-

they failed to apply McDonnell's definition of “official
act” to Articles 192 and 194 of Guinea's Penal Code,
violations of which were the “specified unlawful
activity” underlying Thiam's convictions. We reject
this assertion and hold that McDonnell does not
apply to Articles 192 and 194 of Guinea's Penal Code.
Therefore, regardless of whether our review is
governed by the harmless error or plain error
standard, the jury instructions were not erroneous
for failing to include McDonnell's “official act”
language.
The defendant in McDonnell, a former
Governor of Virginia, was indicted on bribery charges
stemming from his acceptance of gifts, loans, and
other benefits from a Virginia businessman in
exchange for arranging for universities in Virginia to
conduct tests on a nutritional supplement produced
by the businessman.4 To obtain a conviction on the
bribery charges—honest services fraud and Hobbs
Act extortion charges—the government was required
“to show that Governor McDonnell committed (or
agreed to commit) an ‘official act’ in exchange for the
loans and gifts,5 and the parties agreed to use the
definition of “official act” found in the federal bribery
________
4
McDonnell, 136 S. Ct. at 2361.
5

Id.
- App. 8-

statute, 18 U.S.C. § 201(a)(3).6 On appeal, the
Supreme Court focused on the definition of “official
act,” and concluded that this term *should be
interpreted narrowly, such that “[s]etting up a
meeting, talking to another official, or organizing an
event (or agreeing to do so)—without more—does not
fit [the] definition of ‘official act.’ ”7
Principles of international comity, however,
counsel against applying the “official act” definition
set forth in McDonnell to Articles 192 and 194 of
Guinea's Penal Code because this would require us to
interpret Guinean law and, in doing so, limit conduct
that Guinea has chosen to criminalize. The doctrine
of international comity “is best understood as a guide
where the issues to be resolved are entangled in
international relations.8 “Under the principles of
international comity, United States courts ordinarily
refuse to review acts of foreign governments and
defer to proceedings taking place in foreign
countries, allowing those acts and proceedings to
________

Id. at 2365.
Id. at 2372.
8
Jota v. Texaco, Inc., 157 F.3d 153, 160 (2d
Cir. 1998) (quoting In re Maxwell Commc'n Corp., 93
6
7

F.3d 1036, 1047 (2d Cir. 1996)).
- App. 9-

have extraterritorial effect in the United States.”9
Although Thiam was not prosecuted in Guinea for
his actions, presumably he could have been, and our
interpretation of the Guinean statutes at issue here
should not vary depending on that event. We
therefore decline to undertake any such
interpretation.
Moreover, Thiam's arguments to the contrary
notwithstanding, Second Circuit precedent provides
no support for applying McDonnell to Articles 192
and 194 of Guinea's Penal Code. Thiam claims
support from United States v. Silver, a case in which
the defendant was charged with honest services
fraud and Hobbs Act extortion and to which we
applied McDonnell's limitations.10
Although the
parties in Silver did not define “official act” by
reference to 18 U.S.C. § 201(a)(3),11 the defnedants in
both Silver and McDonnell were charged with honest
services fraud and Hobbs Act extortion, and the
_________
9

Fed. Treasury Enter. Sojuzplodoimport v.
Spirits Int'l B.V., 809 F.3d 737, 742–43 (2d Cir. 2016)
(internal quotation marks omitted).
10
864 F.3d 102, 117–19 (2d Cir. 2017), cert.
denied, ––– U.S. ––––, 138 S. Ct. 738, 199 L.Ed.2d
605 (2018).
11
Id. at 111.
- App. 10-

definition of “official act” at issue in McDonnell
related to those charges.12 Silver therefore provides
no support for applying McDonnell beyond honest
services fraud and Hobbs Act extortion charges.
Likewise, in United States v. Boyland, we applied
the McDonnell standard to honest services fraud and
Hobbs Act extortion, but not to violations under the
“more expansive” 18 U.S.C. § 666.13 Thiam also
points us to United States v. Skelos.14 But Skelos
presents a straightforward application of Silver to
convictions including honest services fraud
conspiracy and Hobbs Act extortion.15 Therefore,
none of these cases provides support for applying
McDonnell to Articles 192 and 194 of Guinea’s Penal
Code.
Thiam’s remaining arguments for applying the
_______
12
McDonnell, 136 S. Ct. at 2365.
13
862 F.3d 279, 290-92 (2d Cir. 2017).
14
707 F. App’x 733 (2d Cir. 2017) (summary
order).
15
Id. at 736–37. While Skelos did apply
McDonnell's definition of “official act” to federal
program bribery under 18 U.S.C. § 666, it was only
because both the government's theory of the case and
the jury instructions were based on “official acts.” Id.
at 738.
- App. 11-

reasoning in McDonnell to Articles 192 and 194 of
Guinea's Penal Code are also unavailing. Thiam
argues that the texts of Articles 192 and 194 are
sufficiently similar to the text of 18 U.S.C. § 201 so
as to “favor[ ]” incorporation of the McDonnell
limitations. Appellant's Br. at 35. Although the texts
of Articles 192 and 194 bear some similarity to the
text of 18 U.S.C. § 201(a)(3), this is unremarkable,
given that all three statutes relate to bribery.
Nothing in McDonnell or in the language of Articles
192 and 194, which plainly cover more than official
acts, compels us to apply the McDonnell official act
standard to those foreign provisions.
Thiam also argues that two of the reasons
motivating the Supreme Court's narrow reading of
“official act” in McDonnell – a concern that a broad
definition would chill legitimate activities of
government officials and a nod toward federalism –
apply in this case as well. We disagree. In
McDonnell, the Supreme Court focused on the nature
of the relationship between government officials and
their constituents, pointing out that “conscientious
public officials arrange meetings for constituents,
contact other officials on their behalf, and include
them in events all the time” and explaining that a
broad interpretation of “official act” could lead
officials to “wonder whether they could respond to
- App. 12-

even the most commonplace requests for assistance”
and cause “citizens with legitimate concerns [to]
shrink from participating in democratic discourse.”16
Putting aside the fact that Thiam did not hold
elected office, the nature of his relationship in
Guinea to the Chinese company – constituent or not
– does not concern a United States court. Also, there
is obviously no concern for federalism here where the
conduct at issue is one that another country has
chosen to criminalize and has no bearing on state
law.
For these reasons, we hold that McDonnell
does not apply to Articles 192 and 194 of Guinea's
Penal Code.17 As a result, Thiam's argument that the
jury instructions were improper necessarily fails.
II. Sufficiency of the Evidence.
________
16

McDonnell, 136 S. Ct. at 2372.

17

Our holding in this case is limited to Articles
192 and 194 of Guinea's Penal Code. We do not
address McDonnell's application to prosecutions
under other bribery statutes or reach any conclusions
regarding whether McDonnell applies to all 18
U.S.C. § 201, honest services fraud, or Hobbs Act
extortion prosecutions.
- App. 13-

‘
Thiam also argues that there was insufficient
evidence (i) to support a finding of a quid pro quo
exchange and (ii) to support a finding that he
committed an “official act” as defined in McDonnell.
We review challenges to the sufficiency of evidence
de novo, “but must uphold the conviction if any
rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.”18
“Moreover, the jury's verdict may be based on
circumstantial evidence, and the Government is not
required to preclude every reasonable hypothesis
which is consistent with innocence.”19
Thiam argues that there was insufficient
evidence to support a finding of a quid pro quo
exchange because there was no “advance agreement
to trade things of value for governmental action” and
the “making of a gratuitous payment as an
after-the-fact reward for a job well done” is not a
crime. Appellant's Br. at 42. But given (i) the timing
of the payments, with the first coming just two
weeks before the Shareholder’s Agreement was
________
18
Silver, 864 F.3d at 113 (quoting United
States v. Vernace, 811 F.3d 609, 615 (2d Cir. 2016)).
19
United States v. Ogando, 547 F.3d 102, 107
(2d Cir. 2008) (internal quotation marks and
citations omitted).
- App. 14-

executed and others following soon thereafter, (ii)
Thiam's efforts to conceal both his true employment
and the source of the payments, and (iii) Thiam's
implausible explanation at trial that the payments
constituted an undocumented and interest-free
personal loan, there is sufficient evidence to support
a finding by the jury of a quid pro quo exchange. And
there is no merit to Thiam's argument that the
evidence was insufficient to support a finding that he
committed an “official act” as defined in McDonnell
in light of our holding that this definition is
inapplicable to the Guinean statutes at issue.
III. Evidentiary Challenges
Finally, Thiam challenges evidentiary rulings
made by the district court that (i) precluded him at
trial from playing certain excerpts of his post-arrest
interview with the FBI; (ii) admitted into evidence a
summary chart showing his luxury purchases and a
text exchange between Thiam and a third party
regarding Pa's incarceration; and (iii) permitted
government cross-examination based on Thiam's
noncompliance with foreign reporting requirements,
his knowledge of Pa's other bribes, and his
knowledge of corruption in Africa. We find no error
with respect to these rulings, all of which are

- App. 15-

reviewable under an abuse of discretion standard.20
Thiam argues that the district court should
have admitted certain excerpts of his post-arrest
interview under the “rule of completeness.” The “rule
of completeness” doctrine under Rule 106 of the
Federal Rules of Evidence provides that an “omitted
portion of a statement must be placed in evidence if
necessary to explain the admitted portion, to place
the admitted portion in context, to avoid misleading
the jury, or to ensure fair and impartial
understanding of the admitted portion.”21 But it does
not “require introduction of portions of a statement
that are neither explanatory of nor relevant to the
admitted passages.”22 Thiam argues that the district
court erred when it precluded statements he made in
the interview about the role that other members of
the Guinean government played in the negotiations
________
20
United States v. Dupre, 462 F.3d 131, 136
(2d Cir. 2006).
21
United States v. Castro, 813 F.2d 571,
575–76 (2d Cir. 1987), cert. denied, 484 U.S. 844, 108
S.Ct. 137, 98 L.Ed.2d 94 (1987).
22
U.S. v. Marin, 669 F.2d 73, 84 (2d Cir. 1982);
see also United States v. Williams, No. 17-3741-cr,
930 F.3d 44, –––– – ––––, 2019 WL 2932436, at
*8–10 (2d Cir. July 9, 2019).
- App. 16-

with CIF and about personal loans he received from
other third parties. Because the rule of completeness
“is violated only where admission of the statement in
redacted form distorts its meaning or excludes
information substantially exculpatory of the
declarant,”23 it was within the district court's
discretion to exclude these statements. In any event,
Thiam testified at trial about both matters, so the
jury had before it the information Thiam claims was
improperly excluded. Therefore, any potential error
was harmless.
Thiam next challenges the admission into
evidence of the summary chart showing his luxury
purchases and of the text exchange regarding Pa's
incarceration, arguing that the district court erred in
finding this evidence to be more probative than
prejudicial.24 “On review of a district court decision to
admit evidence, we generally maximize its probative
value and minimize its prejudicial effect.”25 Because
this evidence was useful to the jury in understanding
________
23
United States v. Benitez, 920 F.2d 1080,
1086–87 (2d Cir. 1990) (internal quotation marks
omitted).
24
See Fed. R. Evid. 403.
25
United States v. Coppola, 671 F.3d 220, 245
(2d Cir. 2012) (internal quotation marks omitted).
- App. 17-

Thiam's motivation for accepting bribes and his
consciousness of guilt respectively, the district court
did not abuse its discretion in admitting it.
Finally, Thiam argues that the district court
erred in permitting cross-examination that pertained
to his noncompliance with foreign reporting
requirements, knowledge of Pa's other bribes, and
general knowledge of corruption in Africa. Because
each of these lines of questioning related to Thiam's
state of mind, the district court did not abuse its
discretion in permitting this cross-examination.
CONCLUSION
We have considered Thiam's other arguments
and conclude that they are without merit. For these
reasons, we AFFIRM the judgment of the district
court.

- App. 18-

